HHS/OIG-Audit--"Reimbursement by Massachusetts Blue Cross for Laboratory Services Performed by Hospitals as an Outpatient Service, (A-01-92-00523)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Reimbursement by Massachusetts Blue Cross for Laboratory Services Performed by Hospitals as an Outpatient Service," (A-01-92-00523)
August 6, 1993
Complete
Text of Report is available in PDF format (1.52 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that in 1991 the Massachusetts Blue Cross (FI) overpaid hospitals $2.25 million in
claims for chemistry and hematology tests. The FI's payment process did not detect claims for chemistry tests that should
have been grouped together for payment purposes. Also, the FI's system was not able to detect and prevent payment of duplicate
claims for chemistry and hematology tests. We recommended that the FI install edits to detect and prevent overpayments
for unbundled or duplicate charges for chemistry and hematology tests performed by hospitals on an outpatient basis, and
initiate recovery from hospitals for overpayments identified by our review.